No. 20In the

Supreme Court of the United States

ANGELICA LIMCACO,
Petitioner,
v.
WYNN LAS VEGAS, LLC AND STEVE WYNN,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

Michael D. Holtz
The Holtz Firm
21650 Oxnard Street,
Suite 500
Woodland Hills, CA 91367
(310) 464-1088

Jordan Matthews
Counsel of Record
Weinberg Gonser LLP
10866 Wilshire Boulevard,
Suite 1650
Los Angeles, CA 90024
(424) 239-2850
jordan@weinberg-gonser.com

Attorneys for Petitioner
300000

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
In 1974, Congress amended the Judicial Code
“ to broaden and clarify the g rounds for judicial
disqualification.” 88 Stat. 1609. The first sentence of the
amendment provides: “Any justice, judge, or magistrate
of the United States shall disqualify himself in any
proceeding in which his impartiality might reasonably be
questioned.” 28 U.S.C. § 455(a), as amended. In Liljeberg,
this Court cited the Fifth Circuit’s analysis and expressed,
“the Court of Appeals for the Fifth Circuit concluded that
a violation of § 455(a) is established when a reasonable
person, knowing the relevant facts, would expect that the
justice…knew of circumstances creating an appearance
of partiality, notwithstanding a finding that the judge was
not actually conscious of those circumstances. Liljeberg
v. Health Services Acquisition Corp., 108 S.Ct. 2197. In
1994, this Court incorporated the “extrajudicial source”
doctrine in analyzing violations of Section § 455. Liteky
v. U.S., 114 S.Ct. 1147, 1149 (1994).
In this case, Petitioner discovered (after filing her
reply brief in the court below), that Respondent WLV’s
lead counsel, Elayna Youchah (“Youchah”) was elevated
to fill the vacancy of the magistrate judge in Petitioner’s
case in district court, while Petitioner’s case was pending.
Youchah’s motion to dismiss was granted (dismissing
Petitioner’s case without leave to amend). Petitioner then
discovered payment arrangements between Respondents
and agents of the district court. Petitioner raised these
issues in supplemental briefing with the court below.
Nonetheless, the court below narrowed the standard for
a violation of Section 455(a) and held that Petitioner’s
“‘newly discovered’ evidence [did] not reveal any error in

ii
judgment made by the district court.” See App. A, infra,
4a.
The first question presented is whether the language
“might reasonably be questioned” under 28 U.S.C.
§ 455(a) can be judicially restricted to require that a
petitioner establish an actual error in judgment, when this
contradicts binding Supreme Court precedent, holdings on
the same issue in various circuit courts and longstanding
canons of statutory construction.
The second question presented is whether outside
payment arrangements between a party to litigation
and an agent of the court sufficiently satisfy the “outside
proceedings” requirement of the “extrajudicial source”
rule.

iii
PARTIES TO THE PROCEEDING
The Petitioner is Angelica Limcaco. Respondents
are Wynn Las Vegas, LLC, a Nevada limited liability
company, and Steve Wynn.

iv
RELATED PROCEEDINGS
Unites States District Court (Nev.):
Limcaco v. Wynn Resorts Ltd., No. 2:18-cv-01685 (April
18, 2019)
United States Court of Appeals (9th Cir.):
Angelica Limcaco v. Steve Wynn, et al., No. 19-15949
(July 28, 2020)

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . .  iii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED  . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
A. Limcaco’s motion for leave to f ile a
supplemental brief in the court below
established an appearance of partiality  . . . . . . . 5
B. Limcaco’s motion for leave to file an amended
supplemental brief and coinciding reply
brief in the court below further established
an appearance of partiality . . . . . . . . . . . . . . . . . . 8

vi
Table of Contents
Page
REASONS FOR GRANTING THE WRIT . . . . . . . . . 10
A. The decision below perpetrates a conflict
among the courts of appeals.  . . . . . . . . . . . . . . . 10
B. The decision below is contrary to the plain
language of 28 U.S.C. § 455(a) and conflicts
with binding Supreme Court precedent. . . . . . . 15
C. The question presented is an issue of national
importance. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
D. This case is a superior vehicle for addressing
the questions presented. . . . . . . . . . . . . . . . . . . . 22
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

vii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED JUNE 22, 2020 . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
S TAT E S DI S T R IC T C OU RT FOR
THE DISTRICT OF NEVA DA , FILED
APRIL 18, 2019  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5a
A P P E N DI X C — O R D E R D E N Y I N G
REHEARING OF THE UNITED STATES
COURT OF APPEALS FOR THE NINTH
CIRCUIT, FILED JULY 28, 2020 . . . . . . . . . . . . . 18a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Caperton v. A.T. Massey Coal Co., Inc.,
129 S.Ct. 2252 (2009)  . . . . . . . . . . . . . . . . . . . . . . . . . 19
Citizens United v. Federal Election Com’n.,
130 S.Ct. 876 (2010) . . . . . . . . . . . . . . . . . . . 2, 16, 21, 22
DCD Programs, Ltd. v. Leighton,
833 F. 2d 183 (9th Cir. 1987)  . . . . . . . . . . . . . . . . . . . 13
First Nat. Bank of Boston v. Belotti,
98 S.Ct. 1407 (1978) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Forman v. Davis,
371 U.S. 178 (1962)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Health Services Acquisition Corp. v. Liljeberg,
796 F.2d 796 (1986) . . . . . . . . . . . . . . . . . . . . . . . .  15, 16
In re Murchison,
75 S.Ct. 623 (1955) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Liljeberg v. Health Services Acquisition Corp.,
108 S.Ct. 2197 . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Limcaco v. Wynn Resorts Ltd.,
Case No. 2:18-cv-01685 . . . . . . . . . . . . . . . . . . . . . . . . . 5
Liteky v. U.S.,
114 S.Ct. 1147 (1994) . . . . . . . . . . . . . . . . . . . . . . . 18, 19

ix
Cited Authorities
Page
Pepsico v. McMillen,
764 F.2d 458 (7th Cir. 1985) . . . . . . . . . . . . . . . . . . 12, 13
Potashnick v. Port City Construction Co.,
609 F.2d 1101 (5th Cir. 1980) . . . . . . . . . . . . . . . . . . . . 14
S.E.C. v. Coldicutt,
258 F.3d 939 (9th Cir. 2001) . . . . . . . . . . . . . . . . . .  10, 15
SCA Services, Inc. v. Morgan,
557 F.2d 110 (7th Cir. 1977) . . . . . . . . . . . . . . . . . . . . . 12
Scott v. U.S.,
748 (D.C. Cir. 1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
U.S. v. Dandy,
998 F.2d 1344, 1349 (6th Cir. 1993) . . . . . . . . . . . . . . 12
U.S. v. Grinnell,
86 S.Ct. 1698 (1966) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
U.S. v. Heldt.,
668 F.2d 1238 (D.C. Cir. 1981) . . . . . . . . . . . . . . . . . . 11
Union Planters Bank v.
L& J Development Co., Inc.,
115 F.3d 378 (6th Cir. 1997) . . . . . . . . . . . . . . . . . . 11, 12

x
Cited Authorities
Page
Statutes and Other Authorities
2 U.S.C. § 441(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 455 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
28 U.S.C. § 455(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 455(b)(4) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
28 U.S.C. § 455(e) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
California Assembly Bill No. 218 . . . . . . . . . . . . . . . . . . 20
Fed. R. Civ. Proc. 60(b) . . . . . . . . . . . . . . . . . . . . . . . . . . 18
S. Ct. Rule 10(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 20
S. Ct. Rule 10(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
S. Ct. Rule 13.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
S. Ct. Rule 13.3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
13A C. Wright & A. Miller, Federal Practice and
Procedure § 3553  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Angelica Limcaco respectfully petitions for
a writ of certiorari to review the judgment of the United
States Court of Appeals for the Ninth Circuit in this case.
OPINIONS BELOW
The Ninth Circuit’s opinion denying Petitioner relief
under 28 U.S.C. § 455(a) is unreported and attached as
Appendix A. See App. A, infra, 1a-4a. The district court’s
order dismissing Petitioner’s case without addressing the
issue of leave to amend is unreported, and attached as
Appendix B. See App. B, infra, 5a-17a.
JURISDICTION
The United States Court of Appeals for the Ninth
Circuit issued its decision on June 22, 2020. See App A. The
Ninth Circuit issued an order denying Petitioner’s petition
for rehearing en banc on July 28, 2020. See Appendix C.
This Petition is timely, as this Court entered an order on
March 19, 2020, extending the deadline to file a petition
for writ of certiorari from 90 days to 150 days from the
date of an order denying a timely petition for rehearing.
See S. Ct. Rule 13.1 and 13.3; see also Order List: 589
U.S. The jurisdiction of this Court is invoked under 28
U.S.C. § 1254(1).

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
28 U.S.C. § 455(a) provides:
Any justice, judge, or magistrate judge of the United
States shall disqualify himself in any proceeding in which
his impartiality might reasonably be questioned.
STATEMENT
This is the most important case to come before this
Court regarding a corporation’s ability to use financial
arrangements to influence public office since Citizens
United v. Federal Election Com’n., 130 S.Ct. 876 (2010).
In Citizens United, Justice Kennedy, opined that “political
speech does not lose First Amendment protection simply
because its source is a corporation.” Id., at 900 (citing
First Nat. Bank of Boston v. Belotti, 98 S.Ct. 1407
(1978)). The practical implications of this decision have
changed elections by designating corporate spending
on elections as free speech. Corporations can spend
unlimited funds on campaign advertising, if they are not
formally “coordinating” with a candidate or political party.
However, while this may be sustainable in the electoral
process, there are troubling consequences if corporations
are similarly per mitted to engage in unfettered
financial arrangements within the actual judicial system
(specifically, when there is no disclosure of such a practice)
and when such arrangements are almost certainly used
as an attempt to curry favor with a court. If a corporation
(or other resourceful party) is able to effectively game the
judicial process through financial arrangements (whether
they are successful or not), then this Court should clarify

3
that such arrangements run counter to the legislative
intent of 28 U.S.C. § 455(a), as it impairs the public’s
confidence in an impartial judicial process.
Petitioner Angelica Limcaco, a former manager
at the salon of WLV, was the initial whistle-blower on
Respondents Steve Wynn and WLV. Limcaco reported to
human resources in 2005 that Andrea (one of Limcaco’s
employees) had been raped and impregnated by disgraced
casino mogul, Steve Wynn. Limcaco was then castigated
into silence by her superior, Doreen Whennen. Steve Wynn
and WLV orchestrated Andrea’s abrupt removal without
explanation and Andrea was never heard from again.
As instructed, Limcaco subsequently brought multiple
allegations of sexual assault regarding Steve Wynn to the
attention of Ms. Whennen, who did nothing.
Limcaco was told that Steve Wynn was more powerful
than the police and that he had bodies buried in the desert.
She was told that Steve Wynn bought a publication and
killed a story about a girl who disappeared on a boat
with him. Various co-workers were abruptly removed by
Respondents and never heard from again after making
allegations of sexual assault.
After meeting with then-president of WLV, Andrew
Pascal, and addressing her concerns, Limcaco was
abruptly terminated, blacklisted and forced to declare
bankruptcy. Limcaco was concerned for her personal
safety because Respondents took affirmative steps to
remove Andrea after Andrea informed Limcaco that
Steve Wynn raped her. Limcaco alleged that these acts
were intended to (in part) make her fear for her life and
induce her silence.

4
After years of oppression and silence, the Wall Street
journal (“WSJ”) uncovered these events in a report in
January 2018, which lead to extensive investigations by
the Nevada Gaming Control Board (the “NGCB”) and the
Massachusetts Gaming Commission the “MGC”). Steve
Wynn was seemingly removed from power and Limcaco
believed at the time that he was no longer a threat to
her safety. Limcaco promptly filed suit in the United
States District Court, District of Nevada in September
2018 against WLV (improperly named initially as Wynn
Resorts). Limcaco filed a First Amended Complaint as a
matter of course and added claims against Steve Wynn (as
she was unable to informally resolve her dispute with him).
Respondents filed motions to dismiss the First Amended
Complaint and argued that Limcaco’s claims were time
barred. Limcaco alleged that Respondents were equitably
estopped from asserting the statute of limitations as a
defense based on their affirmative steps to silence her.
After briefing on the WLV and Steve Wynn motions to
dismiss closed in December 2018, the NGCB and the MGC
released extensive public reports, which substantiated
Limcaco’s claims (specifically, as they related to the
issue of equitable estoppel). The reports addressed a
disparity in power between Respondents and WLV
employees; evidenced Respondents’ efforts to intimidate;
and, specifically, addressed Respondents’ efforts to
immediately cover-up Andrea’s rape allegations. As soon
as each document became available, Limcaco promptly
filed requests for judicial notice.
On April 18, 2019, the Nevada District Court granted
the WLV motion to dismiss and effectively sided with
WLV on all issues (and failed to even address the issue

5
of leave to amend). App. B., infra, 5a-17a. The District
Court refused to consider the evidence submitted from
the NGCB and the MGC. Id., infra, 14a-15a. Limcaco
promptly filed a notice of appeal with the United States
Court of Appeals for the Ninth Circuit on May 3, 2019 and
briefing concluded in December 2019.
However, while preparing for oral argument (which
was originally scheduled for March 2020), Limcaco’s
counsel uncovered clear conflicts of interest surrounding
Respondents’ relationship with the Nevada District
Court, which warranted disclosure and recusal. Limcaco
promptly filed a motion for leave to file a supplemental
brief and request for judicial notice on March 10, 2020,
which the Ninth Circuit granted on March 11, 2020.
Limcaco specifically addressed certain underlying facts in
connection with the matter in the Nevada District court,
which evidenced an appearance of partiality pursuant to
28 U.S.C.§ 455(a).
A. Limcaco’s motion for leave to file a supplemental
brief in the court below established an appearance
of partiality.
Petitioner filed a motion for leave to file a supplemental
brief and request for judicial notice in the court below
on March 10, 2020 based on then newly determined
facts evidencing that Youchah, lead counsel for Wynn
Las Vegas (“WLV”) in the District Court Matter,1 was
actively under consideration by the Nevada District Court
(during the pendency of the District Court Matter) to fill
1. Limcaco v. Wynn Resorts Ltd., Case No. 2:18-cv-01685
(the “District Court Matter”).

6
the vacancy of Magistrate Foley, the magistrate assigned
to the District Court Matter. Petitioner determined that
Youchah (who filed multiple motions on behalf of WLV
during this time period) was then apparently selected by
the District Court to fill Magistrate Foley’s vacancy in late
March/early April 2019, while still ostensibly serving as
lead counsel for WLV. The District Court then promptly
granted the WLV motion to dismiss on April 18, 2019.
These pertinent facts were never disclosed to Petitioner.
In connection with the Petitioner’s first motion in the court
below, she prepared a timeline of the proceedings in the
Nevada District Court.
The District Court Matter was filed in September
2018. Youchah, of Jackson Lewis in Las Vegas, served
as lead counsel for WLV in the Nevada District Court
Matter. 2 Honorable Miranda Du served as the district
judge and Honorable George W. Foley served as the
magistrate judge in the Nevada District Court Matter.
On or about October 19, 2018, the Clark County Bar
Association announced that, in connection with Honorable
Foley’s retirement, the application deadline to fill his
vacancy with the Nevada District Court was November 30,
2018. Youchah filed the WLV motion to dismiss the First
Amended Complaint on November 8, 2018 and the reply
in support of the WLV motion to dismiss on November
2. Youchah was lead counsel for WLV throughout the
entirety of the proceedings in the District Court Matter (noting
that Deverie Christensen, one of Youchah’s colleagues at Jackson
Lewis in Las Vegas, filed a notice of appearance on behalf of WLV
with the Nevada District Court on April 2, 2019, sixteen (16) days
before the Nevada District Court granted the WLV motion to
dismiss (effectively, in the entirety)).

7
28, 2018. On December 3, 2018, the Nevada District
Court appointed a merit selection panel regarding the
vacancies of Honorable George W. Foley and Honorable
Carl Hoffman.
Simultaneously, the final reply brief regarding
the Steve Wynn motion to dismiss, which was filed in
connection with the WLV motion to dismiss, was filed
on December 26, 2018. A decision on the WLV motion
to dismiss was not rendered until approximately four
(4)-months later on April 18, 2019.
On February 4, 2019, Youchah, as lead counsel for
WLV, filed a motion to strike Plaintiff’s request for judicial
notice. On February 19, 2019, Youchah filed a reply brief
regarding Plaintiff’s response to WLV’s motion to strike.
On March 12, 2019, Youchah filed a motion to strike
Plaintiff’s second request for judicial notice.
On April 2, 2019, Christensen, who was Youchah’s
colleague at Jackson Lewis in Las Vegas, filed a notice of
appearance as counsel for WLV. Youchah was still listed as
lead counsel for WLV at that time and had not withdrawn
from the Nevada District Court Matter. Christensen also
filed a reply brief to Plaintiff’s response to WLV’s motion
to strike Plaintiff’s second request for judicial notice on
the same date (noting that all prior filings in the Nevada
District Court Matter were filed by Youchah).
The Nevada District Court filed an order granting the
WLV motion to dismiss sixteen (16) days later on April
18, 2019. The Nevada District Court denied Plaintiff’s
requests for judicial notice, and failed to even address the
issue of leave to amend.

8
Then, on May 17, 2019, the Nevada District court issued
a press release announcing that Youchah was actually
selected to fill the vacancy of Magistrate George Foley,
the Magistrate in the Nevada District Court Matter. The
Nevada District Court posted a similar announcement on
May 20, 2019. On May 28, 2019, Youchah’s representation
with WLV ended. Judge Du, who granted the WLV motion
to dismiss in the entirety, was subsequently elevated to
the position of Chief Judge of the Nevada District Court,
which was announced in or around September 2019. Judge
Du is now Youchah’s colleague and superior.
B. Limcaco’s motion for leave to file an amended
supplemental brief and coinciding reply brief in the
court below further established an appearance of
partiality.
After further investigation, Limcaco filed a motion
for leave to file an amended supplemental brief on April
14, 2020, which the Ninth Circuit ultimately denied and
refused to consider (the “Amended Ninth Circuit Motion”).
However, the Amended Ninth Circuit Motion established
additional compelling facts regarding Respondents’
relationship with the Nevada District Court, which were
further clarified by Limcaco’s coinciding reply brief filed
on April 24, 2020. Buckley, the former Speaker of the
Nevada State Assembly and the Executive Director of
the Legal Aid Center of Southern Nevada (the “Legal
Aid Center”), was placed on the merit selection panel that
ultimately selected Youchah. The merit selection panel
selected Youchah, prior to the Nevada District Court’s
ruling on the WLV motion to dismiss. Ms. Kim Sinatra
(“Sinatra”), the former general counsel for Wynn Resorts
(the parent company of WLV) is on the board of directors

9
of the Legal Aid Center. Although Sinatra separated
from Wynn Resorts around July/August of 2018, she
was contractually obligated to remain available to Wynn
Resorts through December 2018 (which coincides with
Buckley’s appointment to the merit selection panel on
December 3, 2018).
Of even greater significance, during the entire
pendency of the Nevada District Court Matter, Wynn
Resorts/WLV were in a conditional/revocable financial
relationship with the Legal Aid Center (whereby Wynn
Resorts/WLV “donated” about $100,000 per year to the
Legal Aid Center). Wynn Resorts’ fourth “donation” was
due in April 2019 (the month the Nevada District Court
Matter was dismissed). This arrangement was set forth in
a Memorandum of Understanding between Wynn Resorts/
WLV and the Legal Aid Center (the “MOU”). The MOU
was signed by Sinatra (on behalf of Wynn Resorts) and
Buckley (on behalf of the Legal Aid Center). Paragraph 5
of the MOU states that the “donations” could be revoked
by Wynn Resorts in its sole discretion.
Buckley (who was placed on the merit selection panel),
while Sinatra was still in a contractual relationship with
Wynn Resorts (and while Sinatra was simultaneously
serving on the Legal Aid Center’s board of directors),
knew when she was placed on the merit selection panel on
December 3, 2018, that her foundation was anticipating a
conditional/revocable “donation” of $100,000 from Wynn
Resorts in April 2019.
If the decision below is allowed to stand, it will have
devastating practical consequences on the court system.
The decision below effectively strips plaintiffs of any

10
assurance that they can expect a fair and impartial
judicial system free from outside influence, despite the
express intent of Congress pursuant to Section 455(a). If
the holding in the case below stands, it will have enduring
systemic effects on our judicial system, as corporate
parties (with vast resources), in particular, will have a
virtually unchecked ability to engage in financial dealings
with the court in connection with proceedings where
they are named parties. This is the converse intention of
28 U.S.C. § 455(a) and can perhaps best be viewed as an
unintended consequence of the practical implications of
Citizens United.
Because the questions presented are of enormous
legal and practical importance and this case is an optimal
vehicle for addressing them, the petition for a writ of
certiorari should be granted.
REASONS FOR GRANTING THE WRIT
A. The decision below perpetrates a conflict among
the courts of appeals.
The Ninth Circuit’s decision, which re-writes the
standard for recusal, unambiguously conf licts with
holdings from various other circuit courts, warranting
this Court’s supervisory review. S. Ct. Rule 10(a). The
court below held, “[Petitioner’s] ‘newly discovered’
evidence does not reveal any error in judgment made
by the district court ‘in the conclusion it reached upon
weighing the relevant factors’” (emphasis added). S.E.C.
v. Coldicutt, 258 F.3d 939, 941 (9 th Cir. 2001); see also
App. 4a. This onerous standard is troubling, as it not only
eradicates the objective standard applied to a recusal

11
analysis under 28 U.S.C. § 455(a) (as further discussed
infra in Section B), but it conflicts with multiple other
circuits’ analyses regarding the issue of recusal. The
Ninth Circuit’s holding in the case below supplants that
“appearance” of partiality standard with the inference
that a petitioner must establish “actual” partiality.
In Scott v. U.S., the District of Columbia Court
of Appeals held, “[n]either bias in fact nor actual
impropriety is required to violate Canon providing that
judge should disqualify himself in proceeding in which
his impartiality might reasonably be questioned. Scott, at
748-49 (D.C. Cir. 1989) (citing ABA Code of Jud. Conduct,
Canon 3, subd. C(1)). There, Chief Judge Roberts opined:
[t]he necessity for recusal in a case is premised
on an objective standard. Because Canon
3(C) is incorporated into the federal judicial
qualif ication statute, 2 8 U.S.C. § 455…
federal decisions interpreting the statute
are instructive. Thus, even before the recent
decision of the Supreme Court in [Liljeberg, at
2194], it was clear from the federal circuit court
opinions that a judge must recuse from any
case in which there is “an appearance of bias
or prejudice sufficient to permit the average
citizen to question [the] judge’s impartiality”
(emphasis added)
Scott, at 749 (citing U.S. v. Heldt., 668 F.2d 1238, 1271
(D.C. Cir. 1981).
In Union Planters Bank v. L & J Development Co.,
Inc., the Sixth Circuit similarly held (in interpreting

12
28 U.S.C. § 455(a)), “[p]ursuant to § 455, a judge must
recuse himself or herself ‘where a reasonable person
with knowledge of all the facts would conclude that the
judge’s impartiality might reasonably be questioned.’”
Union Planters Bank v. L& J Development Co., Inc., 115
F.3d 378, 383 (6th Cir. 1997). “This statute is designed
‘to promote confidence in the judiciary by avoiding even
the appearance of impropriety whenever possible”
(emphasis added). Id. (citing Liljeberg, at 2194). “Where
the question is close, the judge must recuse himself.”
Union Planters Bank, at 383 (citing U.S. v. Dandy, 998
F.2d 1344, 1349 (6th Cir. 1993).
Of perhaps even greater significance, Circuit Judge
Moore opinioned, “[n]othwithstanding the statute’s
broad reach, disqualification under § 455(a) may be
waived following full disclosure. Union Planters Bank,
at 383; see also 28 U.S.C. § 455(e). In the case below,
there simply was no disclosure regarding the conflicts
of interest surrounding the proceedings. Moreover, the
narrow holding of the court below, which demands that
a petitioner actually establish an “error in judgment”
(App. 4a) in order to substantiate a recusal, conflicts with
the “broad reach” of the statute announced by the Sixth
Circuit. Union Planters Bank, at 383.
In Pepsico, Inc. v. McMillen, a case with facts that
are instructive to the highly unusual circumstances in
the case below, Circuit Judge Posner opined, “[t]he test
for an appearance of partiality is, as the language from
[SCA Services, Inc. v. Morgan, 557 F.2d 110 (7th Cir.
1977)] indicates, whether an objective, disinterested
observer fully informed of the facts underlying the
grounds on which recusal was sought would entertain a

13
significant doubt that justice would be done in the case.”
Pepsico v. McMillen, 764 F.2d 458, 460 (7th Cir. 1985). The
circumstances in Pepsico, although not symmetrical, have
comparable relevance. There, the court held:
Judge was required to recuse himself from an
action where person working on judge’s behalf
mistakenly contacted law firms representing
opposing parties in pending antitrust action
concerning possible employment of judge after
his retirement from bench; although there was
no actual impropriety, recusal was required
to avoid appearance of partiality, inasmuch
as objective observer might wonder whether
judge might not, at some unconscious level,
favor firm that had not as definitively rejected
his employment (emphasis added).
Id., at 460. In the case below, Respondent’s counsel was
in direct contact with the district court (during the entire
pendency of the same matter) regarding employment
as a magistrate judge presiding over the very case she
was litigating. She was then selected by the same court
within weeks of a ruling on a dispositive motion (that she
authored and submitted to the district court), where the
ruling was entirely in her favor (dismissing Petitioner’s
case without leave to amend). DCD Programs, Ltd. v.
Leighton, 833 F. 2d 183 (9th Cir. 1987) (“[p]rocedural
rule’s policy of favoring amendment to pleading should
be applied with extreme liberality” (emphasis added));
see also Forman v. Davis, 371 U.S. 178, 182 (1962) (“[t]
he United States Supreme Court has stated that this
mandate is to be heeded”) (emphasis added).

14
At the time the district court ruled on her motion,
Youchah had apparently been selected to fill the vacancy
of a Judge in Petitioner’s case, but was still ostensibly
listed as lead counsel. Buckley, who was appointed by
the Nevada District Court to the merit selection panel
that elevated Youchah (and who’s foundation, the Legal
Aid Center) is referred a substantial number of pro bono
cases from the Nevada District Court, was also receiving
conditional “donations” from Wynn Resorts. Indeed,
Wynn Resorts (Respondent WLV’s parent company)
was effectively employing both Youchah (WLV’s counsel)
and Buckley. Judge Du, who presided over the district
court matter, then assumed the role of Chief Judge of the
Nevada District Court within months of both Youchah’s
appointment and her dismissal of Petitioner’s case without
leave to amend. Judge Du also collaborates with Youchah
on multiple cases currently. Id. (the relationship…familial
and financial (as in Potashnick v. Port City Construction
Co., 609 F.2d 1101 (5th Cir. 1980)) between a judge and
lawyer in a case before him is of course a familiar basis
for recusal). The “appearance” of partiality in the case
below (whether or not there was any actual impropriety)
warranted disclosure and recusal. 28 U.S.C. § 455(a).
Nonetheless, the holding in Pepsico (not dissimilar
from the opinions from the D.C. Circuit Court and the
Sixth Circuit addressed above) is that the standard for
recusal is whether there is an “appearance” of partiality,
not whether “the evidence reveals an error in judgment,”
as narrowly articulated by the court below. App.4a.
This Court should grant the petition for writ of
certiorari to ensure uniformity among the circuit courts
on this important issue.

15
B. The decision below is contrary to the plain language
of 28 U.S.C. § 455(a) and conflicts with binding
Supreme Court precedent.
The decision from the court below explicitly conflicts
with this Court’s express holding in in Liljeberg regarding
the interpretation of 28 U.S.C. § 455(a). S. Ct. R. 10(c).
In Liljeberg, Justice Stevens, who acted in accord with
Chief Judge Clark of the 5th Circuit, established that the
appropriate inquiry is whether there is an appearance of
partiality, which is assessed under an objective standard.
Liljeberg, at 2202 (citing Health Services Acquisition
Corp. v. Liljeberg, 796 F.2d 796, 802 (1986)) (“[t]he goal
of section 455(a) is to avoid even the appearance of
partiality…[whether or not] the judge is pure of heart
and incorruptible”) (emphasis added).
The holding in the court below contravenes the
express intent of Congress’ amendment to Section 455(a),
as the holding transposes the word “appearance” (as
established by this Court in Liljeberg) with the inference
that the violation must be “actual.” App. 4a. Indeed,
the court below held, “[Petitioner’s] ‘newly discovered’
evidence does not reveal any error in judgment made
by the district court ‘in the conclusion it reached upon
weighing the relevant factors’” (emphasis added) S.E.C. v.
Coldicutt, 258 F.3d 939, 941 (9th Cir. 2001); see also App.
4a. While Petitioner contends otherwise for her purposes,
the greater concern is the far-reaching effects this newly
determined onerous standard has on future cases (in the
Ninth Circuit and otherwise) that interpret Section 455(a).
The Ninth Circuit’s new standard requires a showing
of “actual” partiality, as opposed to an “appearance” of
partiality, which is at odds with this Court’s precedent and

16
related authority. Health Services Acquisition Corp., at
801 (citing 13A C. Wright & A. Miller, Federal Practice
and Procedure § 3553 (“[t]here should be no room in [the
recusal] context for the concept of harmless error to apply,
nor for arguments to be made that in fact the judge
acted in an impartial manner”) (emphasis added). The
holding in the court below contravenes Supreme Court
precedent. Citizens United, at 912 (Supreme Court
precedent is to be respected by the Court unless the most
convincing of reasons demonstrates that adherence to it
puts the Court on a course that is sure error).
The court below neglected the express language
of Section 455, which unambiguously provides, “[a]ny
justice, judge, or magistrate judge of the United States
shall disqualify [herself] in any proceeding in which [her]
impartiality might reasonably be questioned (emphasis
added). 28 U.S.C. § 455(a). This Court has interpreted
Section 455(a) to require recusal if there is an objective
appearance of partiality, even if the conduct was not
actually partial.
Petitioner only needed to show that a reasonable
person under the circumstances would find an
appearance of partiality, and she was not even required
to establish scienter (emphasis added). Liljeberg, at 2202
(“[v]iolation of statute which requires judge to disqualify
[herself] in any proceeding in which [her] impartiality
might reasonably be questioned is established when a
reasonable person, knowing the relevant facts, would
expect the judge knew of circumstances creating an
appearance of partiality, notwithstanding finding
that the judge was not actually conscious of the
circumstances3 (emphasis added)).
3. This Court distinguished that there is an express
distinction, for instance, between Section 455(a) and Section

17
To address this point, Limcaco alleged (and
substantiat ed w ith suppor ting decla rations and
unambiguous exhibits) among other points, that WLV’s
lead counsel (who filed virtually every brief on behalf of
Respondent WLV, while she was simultaneously under
consideration by the Nevada District Court to fill a vacancy
of a judge in the same matter), was selected by the same
court to fill the vacancy just prior to a ruling granting
her client’s motion to dismiss. The Nevada District Court
sided with Respondent WLV (and its counsel, who was the
Nevada District Court’s new colleague) on every issue
and disposed of Limcaco’s case without even considering
the issue of leave to amend. Limcaco also established
an ongoing conditional financial relationship between
WLV and a member of the merit selection panel (here,
Buckley) that was appointed by the Nevada District Court,
which the court below refused to consider. Petitioner
established that Wynn Resorts was set to pay Buckley’s
foundation $100,000 in April 2019, which coincided with
Youchah’s appointment as a Judge in Petitioner’s case,
and a subsequent ruling on April 18, 2019, dismissing
Petitioner’s case without leave to amend (and without any
disclosure of this actual conflict of interest).
Justice Stevens was clear in this Court’s opinion in
Liljeberg and established that the purpose of § 455(a)
is to promote confidence in the integrity of the judicial
455(b)(4). This Court held, “[t]o read § 455(a) to provide that
the judge must know of the disqualifying facts, requires not
simply ignoring the language of the provision—which makes no
mention of knowledge—but further requires concluding that the
language in subsection (b)(4)—which expressly provides that the
judge must know of his or her interest—is extraneous” (emphasis
added). Liljeberg, at 2202.

18
process. Liljeberg, at 2202-03 (“…advancement of the
purpose of [§ 455(a)]—to promote public confidence in
the integrity of the judicial process…does not depend
upon whether or not the judge actually knew of facts
creating an appearance of impropriety, so long as the
public might reasonably believe that he or she knew”
(emphasis added).
This Court’s holding in Liljeberg is intended to
preserve the public’s trust in the judiciary and to guard
the integrity and nobility of the office. Id., at 2204 (“[i]
n determining whether judgment should be vacated for
violation of statute requiring judge to disqualify [herself]
in any proceeding in which [her] impartiality might
reasonably be questioned, it is appropriate to consider risk
of injustice to parties in particular case, risk that denial
of relief will produce injustice in other cases, and risk of
undermining public’s confidence in judicial process”); see
also Fed. R. Civ. Proc. 60(b).
A lthough the facts strongly evidence cer tain
improprieties, Limcaco (a member of the public) was
only required to establish an appearance of partiality, as
Congress articulated in the drafting of Section 455(a) and,
as this Court held in Liljeberg. Justice Kennedy confirmed
this notion, when he filed an opinion concurring in the
judgment in Liteky v. U.S., 114 S.Ct. 1147 (1994). There,
Justice Kennedy opined, “the relevant consideration under
§ 455(a) is the appearance of partiality” (emphasis added).
Id. at 1158-59 (citing Liljeberg, at 2202-03). Limcaco was
not required to “evidence and error in judgment,” and to
hold her to such a standard clearly conflicts with precedent
set forth by this Court.

19
In Liteky, this Court held that recusal under Section
455(a) is subject to the limitation of the “extrajudicial
source” doctrine. Liteky, at 1149. The premise of the
“extrajudicial source” doctrine is that “judicial rulings
almost never constitute a valid basis for a bias or partiality
recusal motion.” Id., at 1150 (citing U.S. v. Grinnell, 86
S.Ct. 1698, 1710 (1966). It would be difficult to surmise,
however, that Respondent WLV’s financial arrangements
with an agent of the court (which was directly tied
to elevating its counsel to the position of a Judge in
Petitioner’s case just prior to a ruling dismissing her case
without leave to amend) would qualify as prejudice arising
out of the proceedings.
This Court has squarely addressed that bias does not
need to actually exist, nor does it need to be proven,
in order to substantiate a violation of Section 455(a).
Caperton v. A.T. Massey Coal Co., Inc., 129 S.Ct. 2252,
2265 (2009) (objective standards may also require recusal
whether or not actual bias exists or can be proved); see
also Id. (citing In re Murchison, 75 S.Ct. 623 (1955) (“Due
process ‘may sometimes bar trial by judges who have no
actual bias and who would do their very best to weigh the
scales of justice equally between contending parties.”).
This Court should grant the petition for writ of
certiorari to mitigate against future decisions that attempt
to narrow the statutory language of Section 455(a) by
requiring a showing of “actual” partiality.

20
C. The question presented is an issue of national
importance.
This watershed case presents this Court with
issues of exceptional importance, as the circumstances
here effectively serve as an unintended consequence of
practical implications of the holding in Citizen’s United,
which justifies this Court’s exercise of its supervisory
powers. S. Ct. R. 10(a). The factual underpinnings of
this case establish a virtually unchecked abuse of power
by WLV and Steve Wynn against Petitioner. The facts
(which are substantiated by third-party investigative
agencies) establish that WLV and Steve Wynn threatened
Limcaco’s personal safety. Even more astounding is
that when Limcaco again courageously came forward in
2018, Respondents assisted or attempted to directly or
indirectly influence the judicial process in their favor (in
another attempt to trample on Limcaco’s rights).
California Assembly Bill No. 218 (“Assembly Bill
218”) is instructive on the issue Limcaco presented to
the court below in her appeal. Indeed, in accordance with
our society’s important efforts to protect the interests
of victims of abuse, California Governor Gavin Newsom
approved Assembly Bill 218 on October 13, 2019. While
Assembly Bill 218 directly addresses the statute of
limitation regarding victims of childhood sexual assault,
the factual underpinnings of this case (which address
years of abuse by WLV and Steve Wynn) saliently warrant
protection. For purposes of clarity, Assembly Bill 218
increases the time limit for commencing an action for
recovery of damages suffered as a result of childhood
sexual assault to 22 years from the date plaintiff attains
the age of majority…” California Assembly Bill No. 218,

21
Chapter 861. Similarly, Limcaco argued that WLV and
Steve Wynn were estopped from asserting the statute of
limitations as a defense due to their overt steps to abuse
her and impede her from coming forward.
However, when Limcaco did again come forward,
WLV and Steve Wynn took steps to endanger the integrity
of the judiciary, through direct or indirect influence over
the Nevada District Court Matter. Canon 1 of the Judicial
Code of Conduct provides that a judge should uphold the
integrity and independence of the judiciary. Guide to
Judiciary Policy, Vol. 2, Pt. A, Canon 1. Canon 2 provides
that a judge should avoid impropriety and the appearance
of impropriety in all activities. Id., Canon 2. Specifically,
Canon 2 delineates, “[a] judge should [not] convey or
permit others to convey the impression that they are in a
special position to influence the judge” (Id). Nonetheless,
WLV apparently arranged or assisted its lead counsel in
taking over the position of a vacancy in Petitioner’s case
in the Nevada District Court and covertly withheld this
information. There was undoubtedly an impression that
WLV was in a special position to influence the Nevada
District Court because the same court appointed Buckley
to the merit selection panel that selected Youchah and
Wynn Resorts was in an ongoing conditional/revocable
financial relationship with her foundation.
The issues presented in this case affect the rights
of victims of significant abuse during a crucial time in
our nation’s history. Powerful defendants should not
be absolved of their wrongdoing when they directly
or indirectly attempt to influence a judicial decision
(effectively stampeding the rights of a courageous victim).
Most significantly, the implications of Citizens United,

22
where 2 U.S.C. § 441(b) was struck down as unconstitutional
and this Court removed significant restrictions on political
spending by corporations, has now crept into the judiciary
and must be curtailed. Citizens United, at 917 (reversing
the district court with respect to the constitutionality of
2 U.S.C. § 441(b)’s restrictions on corporate independent
expenditures).
D. This case is a superior vehicle for addressing the
questions presented.
This case is a clean vehicle for resolving the question
presented. It cleanly presents two legal questions
concerning the standard for recusal under 28 U.S.C.
§ 455(a) and a favorable decision is outcome determinative.
The stakes in this case are extraordinary. The issue is not
merely whether this Court should intervene to curtail the
extraordinary abuses of power of resourceful parties such
as WLV and Steve Wynn. If the holding in the court below
stands, then it will have enormous legal and practical
consequences, particularly given the errant nature of
holdings from the Ninth Circuit. Put simply, the holding in
the court below is perhaps best viewed as an unintended
consequence of the practical implications of Citizens
United and litigants cannot afford to wait. This Court
should intervene and correct the Ninth Circuit’s clearly
erroneous decision before it becomes the de facto law of
the Nation (resulting in unchecked corporate spending in
the realm of the judiciary).

23
CONCLUSION
The petition for writ of certiorari should be granted.
Dated: December 28, 2020 Respectfully submitted,
/s/ Jordan Matthews
Jordan Matthews
Counsel of Record
Weinberg Gonser LLP
10866 Wilshire Boulevard,
Suite 1650
Los Angeles, CA 90024
(424) 239-2850
jordan@weinberg-gonser.com
Michael D. Holtz
The Holtz Firm
21650 Oxnard Street,
Suite 500
Woodland Hills, CA 91367
(310) 464-1088
Attorneys for Petitioner

APPENDIX

1a
Appendix A — Appendix
opinionAof the UNITED
STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED June 22, 2020
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-15949
ANGELICA CHRISTINA LIMCACO,
Plaintiff-Appellant,
v.
STEVE WYNN; WYNN LAS VEGAS, LLC, FAC 13,
Defendants-Appellees,
and
WYNN RESORTS LTD.,
Defendant.
May 29, 2020, Argued and Submitted
San Francisco, California
June 22, 2020, Filed
Appeal from the United States District Court
for the District of Nevada
D.C. No. 2:18-cv-01685-MMD-GWF
Miranda M. Du, Chief District Judge, Presiding

2a
Appendix A
Before: W. FLETCHER, BYBEE, and WATFORD,
Circuit Judges.
MEMORANDUM*
In 2006 plaintiff-appellant Angelica Limcaco was a
salon manager at defendant-appellee Wynn Las Vegas,
LLC’s (WLV) resort on the Las Vegas Strip. After one
of her subordinates reported that defendant-appellee
Steve Wynn raped her, Limcaco reported the alleged
rape to her superiors. Shortly thereafter, Limcaco and
her subordinate were dismissed. Limcaco alleges that she
was “blacklisted” and could not find a job in Las Vegas.
Nearly twelve years later, after an exposé about Wynn’s
pattern of sexual misconduct made national headlines,
Limcaco filed this lawsuit under Title VII of the Civil
Rights Act, alleging sexual harassment, retaliation, and
wrongful termination against WLV, as well as several
corresponding state-law claims against both WLV and
Wynn. Limcaco contends that WLV and Wynn should be
equitably estopped from asserting a statute-of-limitations
defense. The district court did not apply the equitable
estoppel doctrine, dismissed Limcaco’s federal claims
as untimely, and decided not to exercise supplemental
jurisdiction over her state-law claims.1 We affirm.

* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
1. Limcaco does not challenge the supplemental-jurisdiction
ruling on appeal.

3a
Appendix A
1. We review application of the equitable estoppel doctrine
for an abuse of discretion. 2 Santa Maria v. Pac. Bell,
202 F.3d 1170, 1176 (9th Cir. 2000), overruled on other
grounds by Socop-Gonzalez v. INS, 272 F.3d 1176, 119496 (9th Cir. 2001) (en banc). Limcaco failed to allege that
she reasonably relied on any fraudulent concealment on
WLV’s part. See Coppinger-Martin v. Solis, 627 F.3d 745,
751 (9th Cir. 2010). Even if she perceived certain conduct
by the defendants as threatening, she failed to allege any
affirmative threat to her personally that prevented her
from pursuing her claims. Under these circumstances,
it was not an abuse of discretion to find that equitable
estoppel should not apply.
2. After WLV filed its reply in support of its motion to
dismiss, Limcaco filed three motions for judicial notice.
The district court granted WLV’s motions to strike
the requests because the motions included substantive
discussion of her claims, rendering them improper
surreplies in violation of District of Nevada Local Rule
7-2(b), which requires parties to seek permission from
the court before filing a surreply. It was not an abuse
of discretion to grant the motion to strike. See Prof’l
Programs Grp. v. Dep’t of Commerce, 29 F.3d 1349, 1353
(9th Cir. 1994). Limcaco’s argument that the district court
was required to take judicial notice of the documents
presupposes that those requests were properly before
the court. Because her requests were not properly before
2. Limcaco incorrectly argues that, because the underlying
facts are undisputed, we should review the application of equitable
estoppel de novo. But that standard applies only to review of
equitable tolling decisions. See Santa Maria, 202 F.3d at 1175-76.

4a
Appendix A
the court, it was not an abuse of discretion not to consider
the documents.
3. Nor was it an abuse of discretion for the district court
to deny Limcaco leave to amend her complaint because
amendment is futile. See Miller v. Rykoff-Sexton, Inc., 845
F.2d 209, 214 (9th Cir. 1988) (holding that amendment is
futile if no set of facts can be proven under the amendment
that would constitute a valid claim). The facts Limcaco
proposed adding in her amended complaint do not reveal
any fraudulent concealment or threats by Wynn or WLV
that would support her equitable-estoppel argument.
4. Finally, the arguments raised in Limcaco’s supplemental
brief lack merit. Her “newly discovered” evidence does not
reveal any error in judgment made by the district court
“in the conclusion it reached upon weighing the relevant
factors.” S.E.C. v. Coldicutt, 258 F.3d 939, 941 (9th Cir.
2001). Moreover, Limcaco cites no authority requiring a
district judge to recuse in similar circumstances.
AFFIRMED.

5a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE DISTRICT
OF NEVADA, FILED APRIL 18, 2019
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
Case No. 2:18-cv-01685-MMD-GWF
ANGELICA CHRISTINA LIMCACO,
Plaintiff,
v.
WYNN LAS VEGAS, LLC., A NEVADA LIMITED
LIABILITY COMPANY, STEVE WYNN, AN
INDIVIDUAL, DOES 1 THROUGH 10, INCLUSIVE
AND ROE CORPORATIONS 1 THROUGH 10,
INCLUSIVE,
Defendants.
April 18, 2019, Decided;
April 18, 2019, Filed
ORDER
I.

SUMMARY

This is an employment discrimination case. Before the
Court are two motions to dismiss filed by Defendant Steve
Wynn and Defendant Wynn Las Vegas, LLC (“WLV”),

6a
Appendix B
respectively.1 (ECF Nos. 23, 34.) Additionally before the
Court are Plaintiff Angelica Christina Limcaco’s requests
for judicial notice. (ECF Nos. 39, 47, 54.)2
The Court grants WLV’s motion to dismiss in part
and dismisses Plaintiff’s federal claims as time-barred.
The Court declines to exercise supplemental jurisdiction
over the remaining state law claims and will dismiss them
without prejudice. The Court denies Mr. Wynn’s motion
to dismiss as moot, given that Plaintiff advances only
state law claims against him. The Court denies Plaintiff’s
requests for judicial notice as improper surreplies and
denies WLV’s motions to strike as moot.
II. BACKGROUND
The following facts are taken from the First Amended
Complaint (“FAC”) (ECF No. 13) unless otherwise
indicated.

1. The Court has reviewed the responses and replies to these
motions. (ECF Nos. 28, 29 (notice of corrected image), 31, 37, 38.)
WLV filed an earlier motion to dismiss (ECF No. 11) that became
moot when Plaintiff filed her First Amended Complaint (ECF No.
13). Accordingly, the Court will deny WLV’s first motion to dismiss
as moot.
2. The Court has reviewed WLV’s motions to strike the first
two of those requests (ECF Nos. 40, 48), Plaintiff’s responses to
those motions (ECF Nos. 42, 50), and WLV’s replies (ECF Nos. 43,
53). The Court also has reviewed Mr. Wynn’s responses to the first
two of Plaintiff’s requests (ECF Nos. 41, 49) and Plaintiff’s replies
(ECF Nos. 44, 51).

7a
Appendix B
Plaintiff worked as a salon manager at WLV from June
13, 2005, until about June 2006. (Id. at 7, 10.) During that
time, numerous co-workers reported to Plaintiff that Mr.
Wynn sexually assaulted them. (See id. at 8-10.) Plaintiff
reported these incidents to her supervisor, Doreen
Whennen, but Whennen failed to take action. (Id. at 2,
10.) Plaintiff took her concerns to the president of WLV,
Andrew Pascal, and was terminated shortly thereafter,
ostensibly because other employees complained about her.
(Id. at 10.) Plaintiff was unable to find work in Las Vegas
and alleges that she was blacklisted. (Id. at 10, 23.) As a
result, Plaintiff moved to Los Angeles. (Id. at 10.)
Plaintiff was traumatized by these events and kept
them to herself for roughly twelve years, until Mr. Wynn
resigned from WLV’s parent company. (Id. at 11-12.)
Plaintiff was concerned that she would face violence if
she spoke out because she heard, among other things,
that taking action against WLV would result in being
terminated and blacklisted in the gaming industry and
elsewhere; that Mr. Wynn bought a media publication
in order to kill a story about himself and a woman who
disappeared on a boat; and that Mr. Wynn “was more
powerful than the police and that there may be people
buried in the desert because of Mr. Wynn.” (Id. at 3, 9.)
Plaintiff was also concerned because a former employee—
Andrea—was terminated and seemingly disappeared
after alleging sexual assault by Mr. Wynn. (Id. at 2-3.)
About three months after Mr. Wynn resigned, Plaintiff
filed a charge of discrimination with the Nevada Equal
Rights Commission (“NERC”). (Id. at 4 (alleging that Mr.

8a
Appendix B
Wynn resigned on February 7, 2018), id. at 7 (alleging
that NERC charge was filed on May 16, 2018).) A charge
was then filed with the Equal Employment Opportunity
Commission (“EEOC”) on May 23, 2018. (Id. at 7.) The
EEOC issued a right-to-sue letter on June 11, 2018. (Id.)
Plaintiff asserts four claims under Title VII of the
Civil Rights Act of 1964, 42 U.S.C. § 2000 et. seq. (first
through fourth claim) for retaliation and hostile work
environment against WLV, and the following state law
claims: retaliation in violation of NRS § 613.340 against
WLV, wrongful termination in violation of public policy
against WLV, intentional infliction of emotional distress
(“IIED”) against WLV, civil conspiracy against all
Defendants, interference with contractual relations
against Mr. Wynn, and interference with economic
advantage against Mr. Wynn. (ECF No. 13 at 13-23.)
III.

LEGAL STANDARD

A court may dismiss a plaintiff’s complaint for “failure
to state a claim upon which relief can be granted.” Fed. R.
Civ. P. 12(b)(6). A properly pled complaint must provide “a
short and plain statement of the claim showing that the
pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2); Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555, 127 S. Ct. 1955,
167 L. Ed. 2d 929 (2007). While Rule 8 does not require
detailed factual allegations, it demands more than “labels
and conclusions” or a “formulaic recitation of the elements
of a cause of action.” Ashcroft v. Iqbal, 556 U.S. 662, 678,
129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009) (citing Papasan
v. Allain, 478 U.S. 265, 286, 106 S. Ct. 2932, 92 L. Ed. 2d

9a
Appendix B
209 (1986)). “Factual allegations must be enough to rise
above the speculative level.” Twombly, 550 U.S. at 555.
Thus, to survive a motion to dismiss, a complaint must
contain sufficient factual matter to “state a claim to relief
that is plausible on its face.” Iqbal, 556 U.S. at 678 (internal
citation omitted).
In Iqbal, the Supreme Court clarified the two-step
approach district courts are to apply when considering
motions to dismiss. First, a district court must accept
as true all well-pled factual allegations in the complaint;
however, legal conclusions are not entitled to the
assumption of truth. Iqbal, 556 U.S. at 679. Mere recitals
of the elements of a cause of action, supported only by
conclusory statements, do not suffice. Id. at 678. Second,
a district court must consider whether the factual
allegations in the complaint allege a plausible claim for
relief. Id. at 679. A claim is facially plausible when the
plaintiff’s complaint alleges facts that allow a court to
draw a reasonable inference that the defendant is liable for
the alleged misconduct. Id. at 678. Where the complaint
does not permit the court to infer more than the mere
possibility of misconduct, the complaint has alleged—but
not shown—that the pleader is entitled to relief. Id. at
679. When the claims in a complaint have not crossed the
line from conceivable to plausible, the complaint must be
dismissed. Twombly, 550 U.S. at 570.
A complaint must contain either direct or inferential
allegations concerning “all the material elements
necessary to sustain recovery under some viable legal
theory.” Twombly, 550 U.S. at 562 (quoting Car Carriers,
Inc. v. Ford Motor Co., 745 F.2d 1101, 1106 (7th Cir. 1989)).

10a
Appendix B
IV. WLV’S MOTION TO DISMISS (ECF NO. 23)
WLV argues, inter alia, that all claims asserted
against it are time-barred. (ECF No. 23 at 4.) Because
the Court agrees that the federal claims are time-barred,
the Court declines to address WLV’s arguments relating
to the state law claims.
It is undisputed that Plaintiff’s federal claims—arising
out of events taking place more than eleven years ago—
are time-barred. Exhaustion of administrative remedies
under Title VII requires plaintiffs to file a charge of
discrimination “within 180 days from the last act of alleged
discrimination” or, in a state like Nevada that has its own
local agency, within 300 days of the last discriminatory
act. 42 U.S.C. § 2000e-5(e)(1); Laquaglia v. Rio Hotel &
Casino, Inc., 186 F.3d 1172, 1175 (9th Cir. 1999). “In a
Title VII suit, failure to file an EEOC charge within the
prescribed 300-day period is not a jurisdictional bar, but it
is treated as a violation of a statute of limitations, complete
with whatever defenses are available to such a violation,
such as equitable tolling and estoppel.” Santa Maria
v. Pac. Bell, 202 F.3d 1170, 1176 (9th Cir. 2000). Thus,
Plaintiff argues that WLV should be equitably estopped
from asserting the statute of limitations as a defense
because WLV and Mr. Wynn threatened and intimidated
her into silence. (See generally ECF No. 28.) The Court
finds that Plaintiff has failed to allege facts sufficient to
justify equitable estoppel and dismisses Plaintiff’s federal
claims as time-barred.
“Equitable estoppel, sometimes called fraudulent
concealment, ‘focuses primarily on the actions taken by

11a
Appendix B
the defendant in preventing a plaintiff from filing suit . . . .
[including] the plaintiff’s actual and reasonable reliance
on the defendant’s conduct or representations.’” Huseman
v. Icicle Seafoods, Inc., 471 F.3d 1116, 1121 (9th Cir. 2006)
(alterations in original) (quoting Santa Maria, 202 F.3d at
1176). “Equitable estoppel may be invoked ‘if the defendant
takes active steps to prevent the plaintiff from suing in
time,’ such as by misrepresenting or concealing facts
necessary to the discrimination claim.” Coppinger-Martin
v. Solis, 627 F.3d 745, 751 (9th Cir. 2010) (internal citations
omitted) (quoting Santa Maria, 202 F.3d at 1176-77). “A
finding of equitable estoppel rests on the consideration of a
non-exhaustive list of factors, including: (1) the plaintiff’s
actual and reasonable reliance on the defendant’s conduct
or representations, (2) evidence of improper purpose on
the part of the defendant, or of the defendant’s actual
or constructive knowledge of the deceptive nature of its
conduct, and (3) the extent to which the purposes of the
limitations period have been satisfied.” Santa Maria, 202
F.3d at 1176. “The doctrine of equitable estoppel . . . is
based on the principle that a party ‘should not be allowed
to benefit from its own wrongdoing.’” Estate of Amaro v.
City of Oakland, 653 F.3d 808, 813 (9th Cir. 2011) (quoting
Collins v. Gee West Seattle LLC, 631 F.3d 1001, 1004 (9th
Cir. 2011)).
Plaintiff bases her argument for equitable estoppel
partly on the same events that give rise to her retaliation
claims—her termination and blacklisting. (ECF No. 28
at 18.) But a plaintiff asserting equitable estoppel “must
point to some fraudulent concealment, some active conduct
by the defendant above and beyond the wrongdoing upon
which the plaintiff’s claim is filed, to prevent the plaintiff

12a
Appendix B
from suing in time.” Coppinger-Martin, 627 F.3d at 751
(quoting Lukovsky v. City & County of San Francisco,
535 F.3d 1044, 1052 (9th Cir. 2008)). Thus, the Court must
reject Plaintiff’s argument to the extent that the “alleged
basis for equitable estoppel is the same as [her] cause of
action.” Id. (alteration in original) (quoting Lukovsky, 535
F.3d at 1052).
The remainder of Plaintiff’s argument for equitable
estoppel is based on the following: (1) Plaintiff heard
that Mr. Wynn was more powerful than the police and
that people were buried in the desert because of him;
(2) Plaintiff heard that a woman disappeared on a boat
with Mr. Wynn; (3) Plaintiff’s employee—Andrea—was
terminated and seemingly disappeared after alleging
sexual assault by Mr. Wynn; (4) Plaintiff was aware of
other employees who seemingly disappeared; (5) Plaintiff’s
supervisor threatened Plaintiff by telling Plaintiff never
to speak about Andrea’s alleged sexual assault; and (6)
Plaintiff perceived Mr. Wynn to wield “immense power”
and an “ability to operate outside the law.” (ECF No. 28
at 13-15, 18.) Plaintiff alleges that Defendants’ conduct
caused her to fear that she would be blacklisted in the
Los Angeles spa industry, kidnapped, or murdered if she
pursued her legal claims. (Id. at 9, 17.)
But Plaintiff has failed to allege any actual threat. 3
Plaintiff does not allege that Mr. Wynn or any employee of
3. WLV argues that threats of violence alone are insufficient
to trigger equitable estoppel because a threat does not conceal
information or mislead the plaintiff. (ECF No. 31 at 4-5.) The Court
need not decide this issue because Plaintiff has not alleged a threat
of violence.

13a
Appendix B
WLV actually threatened to blacklist, kidnap, or murder
her if she spoke out. Rather, Plaintiff alleges that her
supervisor instructed her to refrain from speaking about
Andrea’s alleged sexual assault. Viewed in isolation, that
instruction does not constitute a threat.
Plaintiff may have understood her supervisor’s
instruction as a threat based on the rumors she heard
about Mr. Wynn. (See id. at 17.) But Plaintiff has not
alleged that the conduct at the heart of those rumors
was designed to prevent Plaintiff from pursuing her
legal claims. For example, Plaintiff does not allege that
Mr. Wynn killed a woman on a boat for the purpose of
discouraging Plaintiff from pursuing her legal claims. And
a consideration in determining whether to apply equitable
estoppel is whether a defendant acted with an “improper
purpose” to prevent a plaintiff from filing suit. See Santa
Maria, 202 F.3d at 1176.
To the extent that Defendants’ alleged conduct might
have dissuaded Plaintiff from pursuing her claims initially,
more than eleven years elapsed before Plaintiff finally took
action. Plaintiff does not allege that she had any contact
with Defendants during that time, or that she continued to
hear rumors about Defendants’ mafia-like conduct. While
Plaintiff’s subsequent supervisor in Los Angeles—Jose
Eber—had close ties to Mr. Wynn and his wife (ECF No.
28 at 20), Plaintiff does not allege that Eber threatened
her or that he was susceptible to intimidation or coercion
by Defendants.
Plaintiff’s allegations are troubling if true, and it is
clear that Plaintiff may have found her work environment

14a
Appendix B
intimidating, oppressive, and frightening, but Plaintiff has
not alleged facts to show that Defendants would “benefit
from [their] own wrongdoing” by asserting a statute of
limitations defense. See Estate of Amaro, 653 F.3d at
813. Plaintiff’s allegations show that sexual assaults were
concealed but not that Defendants attempted to silence
her or induce her to forgo her legal claims.
The cases Plaintiff relies upon do not persuade the
Court otherwise. The bulk of these cases involve children
who allegedly were sexually assaulted and then threatened
or intimidated into silence. See Nolde v. Frankie, 192 Ariz.
276, 964 P.2d 477, 479 (Ariz. 1998); John R. v. Oakland
Unified Sch. Dist., 48 Cal. 3d 438, 256 Cal. Rptr. 766, 769
P.2d 948, 949 (Cal. 1989); Doe v. Bakersfield, 136 Cal.
App. 4th 556, 39 Cal. Rptr. 3d 79, 80 (Cal. Ct. App. 2006);
Christopher P. v. Mojave Unified Sch. Dist., 19 Cal. App.
4th 165, 23 Cal. Rptr. 2d 353, 355 (Cal. Ct. App. 1993).
Plaintiff does not allege that she was sexually assaulted
herself, and Plaintiff has not plausibly alleged that she
was threatened.
Accordingly, the Court will grant WLV’s motion to
dismiss in part and dismiss Plaintiff’s federal claims as
time-barred.
V. REQUESTS FOR JUDICIAL NOTICE
Plaintiff requested judicial notice of the following: (1)
a complaint against WLV and its parent company filed by
the Nevada Gaming Control Board (ECF No. 39 at 2; ECF
No. 39-1 (complaint)); (2) the stipulation for settlement and

15a
Appendix B
order among those entities (ECF No. 39 at 2; ECF No.
39-2 (stipulation); ECF No. 47 at 2, 86-93 (fully executed
stipulation)); (3) the addendum to the stipulation (ECF
No. 47 at 2, 95-96); (4) the transcript from the hearing in
that case (ECF No. 47 at 2, 7-84); and (5) the existence
of an investigative report by the Massachusetts Gaming
Commission and certain facts it contains (ECF No. 54 at
2; ECF No. 54-1).
Mr. Wynn opposed Plaintiff’s first two requests (ECF
Nos. 41, 49), and WLV moved to strike them (ECF No. 40,
48). WLV contends that the requests constitute improper
surreplies in violation of LR 7-2(b).4 (ECF No. 40 at 2; ECF
No. 48 at 3.) The Court agrees with WLV—the requests
contain substantive discussion of the merits of Plaintiff’s
claims and equitable estoppel argument. (See ECF No. 39
at 3-5; ECF No. 47 at 4.) Accordingly, the Court will grant
WLV’s motions to strike Plaintiff’s first two requests for
judicial notice. By the same logic, the Court will strike
Plaintiff’s third request for judicial notice as an improper
surreply. (See ECF No. 54 at 2 n.1 (discussing how the
attached documents support Plaintiff’s hostile work
environment claims).)
VI. REMAINING CLAIMS
“If the court determines at any time that it lacks
subject-matter jurisdiction, the court must dismiss the
action.” Fed. R. Civ. P. 12(h)(3). Plaintiff’s FAC contains
4. Local Rule 7-2(b) prohibits parties from filing surreplies
without leave of court.

16a
Appendix B
four claims that raise federal questions. (ECF No. 13 at
13-17.) Having resolved the federal claims in this case, the
Court declines to exercise supplemental jurisdiction over
the remaining state law claims.5 See 28 U.S.C. § 1367(c)(3)
(“The district courts may decline to exercise supplemental
jurisdiction over a claim under subsection (a) if the district
court has dismissed all claims over which it has original
jurisdiction.”). Accordingly, the Court will dismiss the
state law claims without prejudice. Given that the only
claims against Mr. Wynn are dismissed for lack of subject
matter jurisdiction, the Court will deny Mr. Wynn’s motion
to dismiss as moot.
VII.

CONCLUSION

The Court notes that the parties made several
arguments and cited to several cases not discussed above.
The Court has reviewed these arguments and cases and
determines that they do not warrant discussion as they
do not affect the outcome of the motions before the Court.
It is therefore ordered that Defendant WLV’s motion
to dismiss (ECF No. 23) is granted as to Plaintiff’s federal
claims. The Court dismisses Plaintiff’s federal claims and
declines to exercise supplemental jurisdiction over the
remaining state law claims. Thus, the Court dismisses
Plaintiff’s First Amended Complaint (ECF No. 13) in its
entirety. Plaintiff’s state law claims are dismissed without
prejudice.
5. The Court also lacks independent diversity jurisdiction
under 28 U.S.C. § 1332 over the remaining state law claims because
Plaintiff has not alleged that the amount in controversy exceeds
$75,000. (ECF No. 13 at 24-26.)

17a
Appendix B
It is further ordered that Plaintiff’s requests for
judicial notice (ECF Nos. 39, 47, 54) are denied.
It is further ordered that Defendant WLV’s motions
to strike (ECF Nos. 40, 48) are denied as moot.
It is further ordered that Defendant Steve Wynn’s
motion to dismiss (ECF No. 34) is denied as moot.
It is further ordered that Plaintiff’s first motion to
dismiss (ECF No. 11) is denied as moot.
The Clerk of Court is directed to enter judgment in
accordance with this order and close this case.
DATED THIS 18th day of April 2019.

/s/ Miranda M. Du		
MIRANDA M. DU
UNITED STATES
DISTRICT JUDGE

18a
Appendix
C
APPENDIX C — ORDER
DENYING
REHEARING
OF THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT, FILED JULY 28, 2020
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ANGELICA CHRISTINA LIMCACO,
Plaintiff-Appellant,
v.
STEVE WYNN; WYNN LAS VEGAS, LLC, FAC 13,
Defendants-Appellees,
and
WYNN RESORTS LTD.,
Defendant.
JULY 28, 2020, Filed
MOLLY C. DWYER, Clerk
U.S. COURT OF APPEALS
No. 19-15949
D.C. No. 2:18-cv-01685-MMD-GWF
District of Nevada, Las Vegas

19a
Appendix C
ORDER
Before: W. FLETCHER, BYBEE, and WATFORD,
Circuit Judges.
The panel judges have voted to deny appellant’s
petition for rehearing en banc. Judges W. Fletcher and
Watford voted to deny the petition for rehearing en banc,
and Judge Bybee recommended denying the petition for
rehearing en banc.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P. 35.
Appellant’s petition for rehearing en banc, filed July
6, 2020, is DENIED.

